              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report
Inspection of
Resolution  of Firearms
               SignificantInternal
                            FindingControls
Investigation
at Los AlamosRecommendations
                National Laboratory




DOE/IG-0587
      -                                     November
                                             February 2002
                                                      2003
                              Department of Energy
                                 Washington, DC 20585

                                  February 21, 2003



MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Report on “Inspection of Firearms Internal
                         Controls at Los Alamos National Laboratory”


BACKGROUND

The Department of Energy’s (DOE) Los Alamos National Laboratory (LANL) maintains
1,643 firearms for use by its protective force contractor, Protection Technology Los
Alamos (PTLA), and its Security and Safeguards and Dynamic Experimentation
Divisions. Firearms are considered sensitive items by DOE and are subject to strict
inventory controls. The purpose of this inspection was to determine if internal controls
over firearms at LANL are adequate and whether the firearms inventory is administered
appropriate1y.

RESULTS OF INSPECTION

After several unsuccessful efforts to obtain an accurate inventory from LANL sources,
we used the best data available to account for firearms maintained as LANL property.
Nonetheless, we concluded that significant internal control weaknesses exist in the
receiving process and the administration of the firearms inventory. These weaknesses
increase the vulnerability of firearms to loss, abuse and theft.

Specifically,we found that:

           LANL officials were unable to readily provide an accurate firearms inventory
           list, due in part to use of inconsistent nomenclature descriptions in the LANL
           property database;

           some firearms were not entered in the inventory, including 12 shotguns that
           were received in 1999;

           inventory validations conducted in 2000,2001, and 2002 did not identify
           inaccuracies that existed in LANL’s firearms inventory;




                               @     Pnnted w* soy ink on recycled paper
           separate firearms inventories maintained by LANL and PTLA were not
           reconciled; and

           all firearms were not processed through a central receiving point, resulting in
           delays in entering some firearms into LANL’s property inventory.

During our inspection, LANL officials also recognized the need for process improvements
and initiated corrective actions.

MANAGEMENT REACTION

Management agreed with our report and initiated a series of corrective actions to address
our concerns. Management advised it would include firearms in the current “wall to
wall” property inventory that is being conducted at LANL. Management asserted that the
problem we encountered concerned receipt of firearms and not accountability of firearms.
However, in our judgment, the inability of LANL to provide an accurate firearms
inventory; the lack of reconciliation of the LANL inventory with the protective force
inventory; and the acknowledged problems in the process for receipt of firearms and their
inclusion in the formal LANL inventory raised additional doubt about the property
control system at LANL.


Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Under Secretary for Energy, Science and Environment
      Manager, Los Alamos Site Office
      Director, Policy and Internal Controls Management
INSPECTION OF FIREARMS INTERNAL CONTROLS AT
LOS ALAMOS NATIONAL LABORATORY



TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective                              1

              Observations and Conclusions                            2


              DETAILS OF FINDINGS                                     3

              Inventory Lists                                         3

              Recording Inventory                                     4

              Annual Inventory Validations                            4

              Receiving Point                                         5


              RECOMMENDATIONS                                         7


              MANAGEMENT COMMENTS                                     7


              INSPECTOR COMMENTS                                      7


              APPENDICES

              Scope and Methodology                                   8

              Management Comments                                     9




                                    Inspection of Firearms Internal
                                    Controls at Los Alamos National
                                    Laboratory
Overview


INTRODUCTION    The Department of Energy’s (DOE) Los Alamos National
AND OBJECTIVE   Laboratory (LANL) maintains 1,643 firearms for use by its
                protective force contractor, Protection Technology Los Alamos
                (PTLA), and its Security and Safeguards and Dynamic
                Experimentation Divisions. Firearms are considered sensitive
                items by DOE and are subject to strict inventory controls.

                The objective of this inspection was to determine if internal
                controls over firearms at LANL are adequate and whether the
                firearms inventory is administered appropriately.




Page 1                                  Inspection of Firearms Internal
                                        Controls at Los Alamos National
                                        Laboratory
OBSERVATIONS      After several unsuccessful efforts to obtain an accurate inventory
AND CONCLUSIONS   from LANL sources, we used the best data available to account for
                  firearms maintained as LANL property. Nonetheless, we
                  concluded that significant internal control weaknesses exist in the
                  receiving process and the administration of the firearms inventory.
                  These weaknesses increase the vulnerability of the firearms
                  inventory to loss, abuse and theft.

                  Specifically, we found that:

                  •   LANL officials were unable to readily provide an accurate
                      firearms inventory list, due in part to use of inconsistent
                      nomenclature descriptions in the LANL property database;

                  •   some firearms were not entered in the inventory, including 12
                      shotguns that were received in 1999;

                  •   inventory validations conducted in 2000, 2001, and 2002 did
                      not identify inaccuracies that existed in LANL’s firearms
                      inventory;

                  •   separate firearms inventories maintained by LANL and PTLA
                      were materially inconsistent and had not been reconciled; and

                  •   all firearms were not processed through a central receiving
                      point, resulting in delays in entering some firearms into
                      LANL’s property inventory.

                  During our inspection, LANL officials also recognized the need
                  for process improvements. We were informed by LANL officials
                  that they have already initiated corrective actions.




Page 2                                             Observations and Conclusions
Details of Findings

INVENTORY LISTS       LANL officials were unable to readily provide an accurate
                      firearms inventory list. This was due partially to the use of
                      inconsistent nomenclature descriptions for firearms in the LANL
                      property database, resulting in difficulty identifying all firearms
                      listed in the inventory.

                      LANL officials initially provided two inventory lists, each dated
                      November 18, 2002. One list was supposed to contain all firearms
                      maintained at LANL, including those firearms in the possession of
                      PTLA. The second list was provided by PTLA and contained only
                      those firearms in the possession of PTLA. However, we observed
                      that while the LANL list contained a total of 886 firearms, the
                      PTLA list contained 1,550 firearms. A LANL official
                      acknowledged that the initial LANL list, which had been generated
                      by a query of the LANL property database, was incomplete. He
                      stated that the LANL database had been queried using the word
                      “weapon” as the property nomenclature description.
                      Consequently, few firearms were identified because the
                      nomenclature for all firearms in the database does not necessarily
                      include the word “weapon.”

                      A LANL official then provided a second inventory list of LANL
                      firearms dated December 3, 2002, which contained 1,438 firearms.
                      This list was accompanied by three documents identified as
                      property transaction slips that, according to the LANL official,
                      contained firearms that were pending entry into the LANL
                      inventory. Specifically, those firearms pending entry into the
                      LANL property database included the following:



                        Description             Amount         Date Received
                        Shotguns                 12            July 1999
                        Automatic rifles         42            August 2002
                        Glock pistols           145            September 2002




Page 3                                                               Details of Findings
                   On December 5, 2002, the LANL official provided additional
                   documentation for 16 Knight rifles that should also have been on
                   the December 3, 2002, LANL inventory list. Information provided
                   by this official revealed that the rifles had been in the LANL
                   property database but did not appear on the inventory list. The
                   rifles, it was explained, did not have the word “weapon” or “gun”
                   in their property nomenclature description. As such, they were not
                   captured by the December 3, 2002, property inventory data query.

                   With the addition of the 199 firearms included from the property
                   transaction documents and the 16 Knight rifles added to the
                   December 3, 2002, LANL property inventory list, the total number
                   of firearms at LANL was determined to be 1,653. Subsequently,
                   we determined that ten items on the list, including one rocket
                   launcher, were not firearms. We physically accounted for and
                   verified the serial numbers for each of the 1,643 firearms.

                   During our inspection, LANL officials recognized the difficulty of
                   maintaining an accurate inventory list when the LANL database
                   did not include a standard and consistent nomenclature for
                   firearms. LANL officials advised us that they intend to improve
                   the inventory process by adopting a standard and consistent
                   nomenclature for all firearms.

RECORDING          We found that firearms were not entered into the LANL inventory
INVENTORY          in a timely manner and that the separate LANL and PTLA
                   inventories were not reconciled. We identified 12 Benelli
                   shotguns that were received in 1999, and 187 other firearms (145
                   Glock pistols and 42 automatic rifles) that were received at least
                   three months prior to our inspection, which were not entered in the
                   LANL property inventory. All of these firearms were, however,
                   entered in the PTLA firearms inventory database. A LANL
                   official informed us that the Glock pistols and the automatic rifles
                   were not in the LANL inventory because of a delay in data entry
                   caused by staff shortages. LANL officials were unable to provide
                   an explanation for the absence of the 12 shotguns from the LANL
                   inventory. Following our discussion of this issue with LANL
                   officials, we were advised that LANL intends to initiate a process
                   improvement to ensure that all firearms are entered into the LANL
                   property database immediately upon receipt.

ANNUAL INVENTORY   We found that annual firearms inventory validations conducted by
VALIDATIONS        LANL and DOE officials did not identify those firearms in the
                   possession of PTLA and not in the LANL inventory. The PTLA
                   inventory contained 12 Benelli shotguns that were received in



Page 4                                                            Details of Findings
                  1999. Those firearms were absent from the LANL property
                  inventory without explanation. However, these firearms were not
                  identified by DOE and LANL officials during annual inventory
                  validations in 2000, 2001, and 2002. We were told that the
                  validations consisted of verifying the presence of a sample of
                  firearms using the LANL property inventory as the universe of
                  firearms. This process was flawed. Had LANL officials taken the
                  basic step of reconciling the PTLA inventory with the LANL
                  inventory, as we did, they would have identified the
                  inconsistencies and taken actions necessary to assure that the
                  LANL inventory was up-to-date and complete. A PTLA official
                  told us that he had identified the need for updating the LANL
                  inventory as early as 2001.

RECEIVING POINT   Firearms purchased directly by LANL were processed differently
                  than firearms purchased for LANL by DOE or transferred to
                  LANL from other organizations. Specifically, we found that
                  LANL did not consistently require the use of a central receiving
                  point for firearms. The use of two different processes did not
                  provide adequate assurance that all firearms received by LANL
                  were entered into LANL’s property inventory.

                  Firearms directly purchased by LANL were received and initially
                  processed by LANL’s Shipping and Receiving Department, as
                  described in LANL’s Property Management Manual. Bar code
                  labels were prepared for each firearm for inventory control
                  purposes. Information concerning the firearms was electronically
                  transmitted to LANL’s property inventory database. The
                  appropriate property custodian, such as the PTLA property
                  custodian, then picked up the firearms.

                  Firearms purchased by DOE for LANL or transferred to LANL
                  were received directly by a property custodian, such as the PTLA
                  property custodian, who notified his or her property administrator
                  of the receipt of the firearms. The property administrator
                  documented receipt of the firearms and forwarded the
                  documentation to LANL’s Property Management Group, which in
                  turn, sent the documentation to LANL’s Property Accounting
                  Group for manual entry into LANL’s property inventory.

                  LANL received several firearms shipments during the period 1998
                  through December 2002. We observed that firearms purchased
                  directly by LANL and received in October 2002, were processed
                  through LANL’s Shipping and Receiving Department and were
                  listed on LANL’s December 3, 2002, inventory. Firearms



Page 5                                                          Details of Findings
         purchased for LANL by DOE or transferred to LANL in July 1999,
         August 2002, and September 2002, were received and processed
         by property custodians, such as the PTLA property custodian, and
         were not entered in the LANL property inventory. Following our
         discussion of this issue with LANL officials, we were advised that
         LANL will initiate a process improvement to establish a central
         point for receiving and issuing bar codes for all new and
         transferred firearms.

         Inconsistent checks and balances in the receiving process and
         administration of the property inventory at LANL, increase the
         vulnerability of firearms to loss, abuse and theft. Given the
         sensitive nature of firearms as an inventory item, we concluded
         that the situation we found represented a significant LANL internal
         control weakness.

         Our findings in this report will be considered as part of the Office
         of Inspector General’s current overall review of management
         issues at LANL.




Page 6                                                   Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office take
                  appropriate action to ensure that:

                  1. LANL fully implements those process improvements identified
                     by LANL officials during our review.

                  2. The LANL property inventory reflects all firearms maintained
                     by LANL, and that procedures are implemented to assure that a
                     complete and accurate firearms inventory listing may be
                     obtained in a timely manner.

                  3. All firearms received by LANL are entered into the LANL
                     inventory in a timely manner.

                  4. DOE and LANL officials perform annual firearms inventories
                     designed to identify the fullest range of potential problems,
                     such as firearms that are not entered in the LANL inventory.

                  5. LANL establishes consistent checks and balances in the
                     firearms receiving process and administration of its property
                     inventory.


MANAGEMENT        In comments dated February 20, 2003, management agreed with
COMMENTS          our report and initiated a series of corrective actions to address our
                  concerns. Management advised it would include firearms in the
                  current “wall to wall” property inventory that is being conducted
                  at LANL. Management’s verbatim comments are in Appendix B.


INSPECTOR         We consider management’s comments and actions to be
COMMENTS          generally responsive to our recommendations and the issues
                  addressed in our report. However, we do not agree with
                  management that the issue is with the receipt of firearms and not
                  with the accountability of firearms. Given that LANL was not able
                  to provide an accurate firearms inventory; that the LANL
                  inventory was not reconciled with the protective force inventory;
                  and that the process for receipt of firearms did not ensure that all
                  firearms were entered into the LANL property management
                  database, there is no assurance that all firearms received by LANL
                  were accounted for properly.




Page 7                                                      Recommendations
                                           Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the fieldwork portion of our review during
METHODOLOGY   November 2002 to January 2003. Our review included interviews
              with Department of Energy (DOE) officials from the Albuquerque
              Operations Office and officials from LANL and PTLA who were
              involved with the custody, receipt, or property management of
              firearms. We also reviewed applicable policies and procedures
              regarding property management and firearms including:

              •   Department of Energy Property Management Regulations,
                  Title 41 Code of Federal Regulations, Chapter 109.

              •   “Albuquerque Operations Office Property Management
                  Instructions” dated August 3, 1998.

              •   “LANL Property Management Manual.”

              •   Chapter 6, “Equipment and Facilities” from DOE Manual
                  473.2-2 “Protective Force Program” dated June 30, 2002.

              •   PTLA “Firearms Inventory and Control” procedures, dated
                  April 6, 1999.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                                Scope and Methodology
Appendix B




Page 9       Management Comments
                                                                    IG Report No. DOE/IG-0587

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
